   October 1, 2002




Environmental
Programs
DoD Integrated Natural Resources
Management Plans
(D-2003-001)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:
                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
INRMP                 Integrated Natural Resources Management Plan
MCB                   Marine Corps Base
MOU                   Memorandum of Understanding
USFWS                 U.S. Fish and Wildlife Service
          Office of the Inspector General of the Department of Defense
Report No. D-2003-001                                                        October 1, 2002
   (Project No. D2001CK-0150)

           DoD Integrated Natural Resources Management Plans

                                  Executive Summary

Who Should Read This Report and Why? This report should be of interest to DoD
readiness, environmental, and natural resources managers or to others concerned with
DoD stewardship of natural resources on its properties.
Background. The Sikes Act Improvement Amendments, Public Law 105-85, “Sikes Act
Improvement Act of 1997,” November 18, 1997, requires that installations with
significant natural resources prepare and implement by November 18, 2001, integrated
natural resources management plans in cooperation with the U.S. Fish and Wildlife
Service and appropriate State fish and wildlife agencies. The plans should reflect mutual
agreements of the three parties concerning conservation, protection, and management of
fish and wildlife resources on the installation.

Results. DoD had made a positive effort to implement the requirements of the Sikes Act
Improvement Amendments, but full implementation has proven difficult, and additional
management action is needed. DoD completed 311 of 375 plans (83 percent) by the
November 18, 2001, deadline and an additional 37 plans were completed by June 10,
2002. Installations also coordinated the plans, as required, with the U.S. Fish and
Wildlife Service and State fish and wildlife agencies. However, the process can be
improved. Of the 10 installations visited, 8 could not match integrated natural resources
management plan projects to budget documentation. All 10 of the installations did not
have methods to adequately monitor implementation of the plans, and DoD did not take
advantage of an opportunity to manage with other agencies natural resources on military
lands. DoD did not know the extent to which installations were accomplishing goals and
objectives identified in their plans. DoD also had an increased risk for critical habitat
designations and litigation, which could negatively affect military mission capabilities.
The Deputy Under Secretary of Defense (Installations and Environment) and the Services
should work aggressively to coordinate and complete all remaining plans. In addition,
the Deputy Under Secretary of Defense (Installations and Environment) and the Services
must establish a coordination process with the U.S. Fish and Wildlife Service, reconcile
the number of plans required and coordinated with the U.S. Fish and Wildlife Service,
and issue policy to prepare, coordinate, and implement the plans.

Management Comments and Audit Response. The Deputy Under Secretary of
Defense (Installations and Environment) and the Services generally concurred with the
findings except for certain statements. The Army stated the finding did not adequately
address critical habitat and that the issue of no net loss to military lands in support of the
military mission is broader than critical habitat or the Endangered Species Act and the
solution should have more substantive military influence before being subjected to the
coordination process. The Navy updated the tables that showed the status of Navy
integrated natural resources management plans. The Navy also discussed
accomplishments in monitoring implementation of integrated natural resources
management plans projects and that the Navy has a system to match the budget data and
integrated natural resources management plan projects. The Air Force took exception
with the finding statements relative to Air Force compliance with the Sikes Act
Improvement Amendments. The Deputy Under Secretary of Defense (Installations and
Environment) and the Air Force generally concurred with all recommendations. The
Army and the Navy concurred with recommendations except they nonconcurred with
involving the Regional Environmental Coordinators in the integrated natural resources
management plan process. The Army also nonconcurred with the recommendation for
resolving stewardship issues regarding no net loss of military lands. See the Finding
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.

We agree with the Army that applying the no net loss aspect of the Sikes Act
Improvement Amendments is difficult because legal requirements, such as the
Endangered Species Act, could cause a net loss on land use capability. We recognize the
ability of Commander, Navy Region Southeast to track the integrated natural resources
management plan budget and recent steps the region has taken to match projects to
specific environmental program requirements. However, separate systems for tracking
budget data and documenting the completion of integrated natural resources management
plan projects are not sufficient for monitoring progress towards implementation. We
acknowledge that the Air Force made efforts to resolve issues and provide guidance for
preparing, funding, and publishing integrated natural resources management plans.
However, 23 Air Force installations did not publish integrated natural resources
management plans prior to the November 18, 2001, deadline. Based on comments, we
deleted the draft recommendation on involving Regional Environmental Coordinators
with the U.S. Fish and Wildlife Service regions in the integrated natural resources
management plan process. We disagree with the Army nonconcurrence on coordination
for resolving stewardship issues regarding no net loss of military lands. Our
recommendation for coordination is the result of difficulties reported in the development
of integrated natural resources management plans. If implemented, the recommended
coordination process should include all issues associated with no net loss of military
lands to support the military mission and preclude difficulties during the integrated
natural resources management plan 5-year review process. Because the Army comments
were partially responsive, we request that the Army reconsider our recommendation for
resolving stewardship issues and provide additional comments on the final report by
December 2, 2002.




                                            ii
Table of Contents

Executive Summary                                                         i
Background                                                               1

Objectives                                                               3

Finding
     Compliance with the Sikes Act Improvement Amendments                 4

Appendixes
     A. Scope and Methodology
          Scope and Methodology                                          16
          Management Control Program Review                              17
          Prior Coverage                                                 18
     B. Report Distribution                                              19

Management Comments
     Deputy Under Secretary of Defense (Installations and Environment)   21
     Department of the Army                                              26
     Department of the Navy                                              30
     Department of the Air Force                                         37
Background
    Sikes Act. The Sikes Act was passed on September 15, 1960, to promote the
    planning, development, maintenance, and coordination of wildlife, fish, and game
    conservation as well as rehabilitation on military reservations. Throughout the
    years, the Sikes Act has been amended to address all aspects of natural resources
    management and include a requirement for DoD to have cooperative natural
    resources management plans with the Department of Interior and appropriate
    State agencies.

    Sikes Act Improvement Amendments. Public Law 105-85, “Sikes Act
    Improvement Act of 1997,” November 18, 1997, amended the Sikes Act. The
    Sikes Act Improvement Amendments (the Act) require the Secretary of each
    Military Department to prepare and implement an integrated natural resources
    management plan (INRMP) for each military installation in the United States
    under the jurisdiction of the Secretary, unless the Secretary determines that the
    absence of significant natural resources on a particular installation makes
    preparation of a plan inappropriate. DoD installations were required to prepare
    and begin implementing their plans by November 18, 2001. However, the Act
    does have a grandfather clause for existing cooperative plans. The Act states that
    in the case of any installation for which a cooperative plan was in effect as of
    November 17, 1997, the Secretary of each Military Department may complete
    negotiations with the Secretary of the Interior, acting through the Director of the
    U. S. Fish and Wildlife Service (USFWS), and the heads of the appropriate State
    agencies regarding changes that are necessary for the plan to constitute an
    INRMP. A cooperative plan is a mutually agreed-upon plan the Secretary of
    Defense, the Secretary of the Interior, and the appropriate State agency create to
    provide for natural resources conservation and rehabilitation on military
    reservations pursuant to Sikes Act prior to the November 18, 1997, amendments.
    In addition, the Act states that installations should review their plans regularly and
    revise them at intervals of not more than 5 years.
            INRMPs. The Act states that the Secretary of each Military Department
    shall carry out the INRMP program for conserving and rehabilitating natural
    resources on military installations consistent with the use of military installations
    to ensure the preparedness of the Armed Forces. The Act requires that plans
    should:

               •   provide for no net loss in the capability of military installation
                   lands to support the military mission of the installation;

               •   integrate natural resources management activities and objectives
                   into mission-related activities and objectives (include a history and
                   mission of the installation, up-to-date biological information and
                   inventories of the installation’s known natural resources, goals, and
                   objectives for managing natural resources) and identify actions and
                   procedures required to meet natural resources management goals;
                   and




                                          1
           •   provide for fish and wildlife management, land management, forest
               management, and fish and wildlife-oriented recreation.

        INRMP Coordination. The Act requires that the Secretaries of the
Military Departments prepare plans in cooperation with the USFWS and
appropriate State fish and wildlife agencies. The resulting plans shall reflect
mutual agreement of the three parties concerning conservation, protection, and
management of fish and wildlife resources on the installation. The Secretary of
each Military Department must also provide an opportunity for the submission of
public comments on proposed plans.

        Reporting. The Act requires that the Secretary of Defense review the
extent to which plans were prepared or were in effect and implemented during the
previous year, and report that information to Congress no later than March 1 of
each year. The report shall include the number of plans in effect during the
previous year, the date issued or revised, the amounts expended on implementing
the plans, and whether the plans comply with the Sikes Act. In the FY 2001
Defense Environmental Quality Program Annual Report to Congress, DoD
reported all but 39 plans were completed by the November 18, 2001, deadline,
and 90 percent of the remaining plans were complete but were in coordination
with USFWS or State fish and wildlife officials. In addition, DoD reported
spending $43,177,244 on implementing INRMP requirements in FY 2001.

DoD Policy. DoD Instruction 4715.3, “Environmental Conservation Program,”
May 3, 1996, states that plans are to be prepared, maintained, and implemented
for all lands and waters under DoD control that have suitable habitat for
conserving and managing natural ecosystems. The instruction provides a listing
of general and specific contents of an INRMP. The instruction requires that
installations review plans annually and update plans at least every 5 years.

In addition, the instruction states that all natural resources compliance
requirements shall be categorized based on the Environmental Quality
Conservation Compliance Classes. Programming and budgeting priorities for the
conservation programs include Class 0–recurring compliance requirements,
Class I–current compliance, Class II–maintenance requirements, and Class III–
enhancement actions beyond compliance. All projects in Classes 0, I, and II shall
be funded consistently with timely execution to meet compliance deadlines. Also,
the instruction requires that DoD monitor the implementation of INRMPs and
include those plans as part of internal and external environmental compliance
assessments.

Endangered Species Act of 1973. The Endangered Species Act of 1973 gives
the Secretary of the Interior authority to list, protect, and recover threatened and
endangered species. The Secretary of the Interior has delegated responsibility for
administering the Endangered Species Act to the USFWS. In conjunction with
listing a species, USFWS is authorized to designate a critical habitat for the listed
species and to develop management plans for the recovery of the listed species.
The Sikes Act does not affect any provision of a Federal law governing the




                                      2
    conservation and protection of fish and wildlife resources. INRMPs must,
    therefore, provide for enforcement of natural resource laws; and DoD must
    implement the plans within the scope of the Endangered Species Act.

    Consultations. Section 7 of the Endangered Species Act requires that DoD
    formally consult with the USFWS on any proposed action likely to adversely
    affect a threatened or endangered species or critical habitats. Section 7
    consultations may take 150 days or more and result in the issuance of a biological
    opinion by USFWS to DoD. The biological opinion outlines the conditions under
    which DoD may proceed with the proposed action in order to remain compliant
    with the Endangered Species Act.

    Critical Habitat. Critical habitat is a specific geographical area that the USFWS
    has designated essential to the survival and recovery of a threatened or
    endangered species or a segment of its population based on the best scientific and
    commercial data available. Critical habitat could include areas that are inhabited
    by threatened or endangered species and uninhabited areas that are suitable for the
    species to exist. USFWS must consider the potential affects, economic or
    otherwise, of designating a particular area as a critical habitat. When the benefits
    of exclusion outweigh the benefits of designation of a critical habitat, the
    designation may be forgone. Alternately, if special management considerations or
    protections are in place, no need to designate critical habitat may exist. USFWS
    has made 182 critical habitat proposals and designations at 57 installations.

    Effects of Critical Habitat Designations. A critical habitat designation requires
    special planning and management activities that can restrict or adversely affect
    DoD training and testing missions. The House of Representatives version of the
    FY 2003 Defense Authorization Bill contains language that would qualify
    INRMPs as “special management plans” and would negate the need for future
    critical habitat designations if the plan provides conservation benefits to the
    specific species, provides certainty that the plan will be implemented, and ensures
    that the conservation effort will be effective. Exemption of critical habitat
    designation does not absolve a DoD installation from addressing already listed
    species and Section 7 consultations.

Objectives
    The audit objectives were to review DoD installation processes for budgeting
    INRMP projects and to determine whether DoD coordinated INRMPs with
    USFWS and appropriate State fish and wildlife agencies and met the deadline for
    completion and update of INRMPs. We also reviewed the management control
    program as it related to the audit objectives. See Appendix A for a discussion of
    the scope and methodology, our review of the management control program, and
    prior coverage.




                                         3
           Compliance with the Sikes Act
           Improvement Amendments
           DoD had completed 311 of 375 INRMPs (83 percent) by the
           November 18, 2001, deadline, and installations coordinated the plans with
           the USFWS and State fish and wildlife agencies. However, the INRMP
           process can be improved to meet the expectations of all parties concerning
           the coordination and contents of the plans. In addition, 8 of 10
           installations visited could not match INRMP projects to budget
           documentation. All 10 installations visited did not have methods in place
           to adequately monitor the implementation of the plans. The conditions
           occurred because the Office of the Deputy Under Secretary of Defense
           (Installations and Environment) and the Services did not:
              •   resolve issues for completing plans,

              •   resolve issues and establish procedures for coordinating plans with
                  USFWS and State agencies,

              •   establish procedures for integrating INRMP implementation with
                  budget documentation, and

              •   establish procedures for tracking the implementation of the plans.

           As a result, DoD did not take full advantage of an opportunity to
           effectively manage natural resources on military lands in cooperation with
           the USFWS and State fish and wildlife agencies. Also, DoD did not know
           the extent to which installations were accomplishing goals and objectives
           identified in their plans. Further, DoD had an increased risk for critical
           habitat designations and litigation, which could negatively affect military
           mission capabilities.

Status of DoD INRMPs
    As of November 18, 2001, DoD completed 311 (83 percent) of the 375 INRMPs
    required by the Act. The remaining 64 plans (17 percent) were incomplete for the
    following reasons:

       •   46 plans (12 percent) were in draft form awaiting concurrence from the
           USFWS or the State fish and wildlife agencies. Delays occurred because
           installations did not give the reviewing agencies sufficient time to review
           the plans, the reviewing agencies took an extensive amount of time to
           review the plans, or installations and the reviewing agencies were in the
           process of resolving disagreements over the contents of the plans;

       •   Four plans (1 percent) were delayed by litigation; and




                                         4
        •    14 plans (4 percent) were delayed because the installations were unable to
             complete a draft plan for reasons such as late funding, contract
             re-solicitation for INRMP preparation, or consultation with the USFWS.
             Table 1 shows the status of DoD INRMPs by DoD Component.


             Table 1. Status of DoD INRMPs as of November 18, 2001*

                                     Plans          Plans       Drafts in   Drafts in    Incomplete
                                    Required      Finalized     Review      Litigation     Drafts
    Army                               178           165               8        1            4
    Navy                                87            65              18        0            4
    Air Force                           92            69              17        1            5
    Marine Corps                        15            11               1        2            1
    Defense Logistics Agency             3             1               2        0            0
    Total                              375           311              46        4           14
    *Data provided by Services; numbers not validated in the field.



    As of June 10, 2002, DoD completed 348 (93 percent) of the 375 plans the Act
    required. Although the number of plans in litigation remained the same, the
    number of incomplete drafts and drafts in review decreased by 69 percent and
    59 percent respectively. Table 2 shows the status of DoD INRMPs by DoD
    Component.


                 Table 2. Status of DoD INRMPs as of June 10, 2002*

                                     Plans          Plans       Drafts in   Drafts in    Incomplete
                                    Required      Finalized     Review      Litigation     Drafts
    Army                               178           171               4        1            2
    Navy                                87            81               5        0            1
    Air Force                           92            82               8        1            1
    Marine Corps                        15            12               1        2            0
    Defense Logistics Agency             3             2               1        0            0
    Total                              375           348              19        4            4
    *Data provided by Services; numbers not validated in the field.




INRMP Coordination
    DoD installations coordinated plans with USFWS and appropriate State fish and
    wildlife agencies. DoD and USFWS entered into a memorandum of
    understanding (MOU) that established a policy for cooperation and coordination



                                                    5
of plans. However, DoD, some USFWS offices, and State agencies had different
expectations concerning the coordination process for INRMPs and contents of
plans.

MOU between DoD and USFWS. The Deputy Under Secretary of Defense
(Environmental Security) [now the Deputy Under Secretary of Defense
(Installations and Environment)] and the Director of USFWS entered into an
MOU on May 17, 1999. The MOU established a policy for cooperation and
coordination between DoD and USFWS for the effective and efficient
management of fish, wildlife, and plant resources on military lands. In
accordance with the MOU, the USFWS will, subject to availability of funding and
upon the request of DoD, participate in developing and updating plans for
selected installations and expeditiously provide comments on newly developed or
updated plans. The MOU also required that DoD and USFWS meet each
December to review activities associated with the MOU, share information
specified in the MOU, and establish a schedule of work for the upcoming year.
DoD and USFWS officials established a core group with representatives from all
of the Services to discuss and resolve issues concerning the coordination of plans
between DoD installations and USFWS reviewing offices.

INRMP Preparation. The DoD guidance on the Act states that plans should be
prepared in cooperation with the USFWS and the appropriate State fish and
wildlife agencies to reflect a mutual agreement of the parties on the conservation,
protection, and management of fish and wildlife resources. Officials from the
Office of the Assistant Deputy Under Secretary of Defense (Environment)
expected that the USFWS and State fish and wildlife agencies would work closely
with DoD installations throughout the entire INRMP preparation process.
USFWS officials also expected to be more involved in preparation of the plans.
However, 6 out of 10 installations visited coordinated their plans by providing the
draft plans to the reviewing offices for comment after preparing the initial draft
plans without USFWS and State fish and wildlife agency involvement. DoD and
Service guidance required coordination to take place, yet the guidance did not
establish definitive parameters to ensure adequate coordination to meet the
expectations of officials from the Office of the Assistant Deputy Under Secretary
of Defense (Environment).
Interpretation of the Act. DoD and the California-Nevada Operations office in
USFWS Region 1 had differing interpretations of the purpose and contents of
plans. According to the Act, the plan should result in no net loss to military lands
in support of the military mission. However, USFWS reviewing offices were
concerned that plans did not place enough emphasis on stewardship of the land.
For instance, the USFWS Carlsbad, California, office stated that the Marine Corps
Base (MCB) Camp Pendleton, California, INRMP placed too much emphasis on
the military mission and not enough emphasis on stewardship of the land. MCB
Camp Pendleton officials defined stewardship as meeting statutory requirements
while conserving the land to support the military mission. The MCB Camp
Pendleton mission is heavily reliant on land use for extensive ground training.
The USFWS Carlsbad office stated that the MCB Camp Pendleton stewardship
role was to balance natural resource management with mission support and
proactively manage the base natural resources. The conflicting definition of
stewardship delayed the INRMP review process. In July 2001, the USFWS


                                     6
Region 1 office issued guidance to their reviewing offices stating that
environmental contaminants should be specifically discussed in all plans.
However, DoD and USFWS headquarters had previously agreed that
contaminants were to be referenced but not discussed in the plans.

INRMP Workload. Meetings between DoD and USFWS were unsuccessful in
reconciling databases for consistency on the total number of installations
requiring a plan. After the deadline for completion of the plans, DoD and
USFWS status reports indicated differences in the number of installations
required to complete a plan and the number of plans completed. Table 3 shows a
comparison of the status of DoD INRMPs as reported by the USFWS and DoD.


           Table 3. Comparison of the status of DoD INRMPs as of
            November 18, 2001, as reported by DoD and USFWS*

                                                Plans                 Plans
                                               Required             Finalized
          Status per DoD                         375                   311
          Status per USFWS                       335                   214
          Difference                              40                    97
          *Data provided by Services and USFWS; numbers not validated in the field.



As of May 15, 2002, the Office of the Deputy Under Secretary of Defense
(Installations and Environment), the Services, and USFWS officials were working
together to resolve discrepancies in the number of plans required and number of
plans considered complete by USFWS and DoD.

DoD and USFWS had not agreed on the involvement of each party in preparation
of the plans and the purpose and contents of the plans. In addition, DoD and
USFWS did not adequately plan the review process through reconciling the
number of plans and establishing a workload schedule as the plans were available
for review. Some USFWS and State fish and wildlife officials stated that they
could not effectively plan and provide resources for the review of plans because
installations did not give them sufficient notice of when they would receive the
plans for review. DoD and USFWS should reaffirm their policy to cooperatively
manage natural resources on military lands in accordance with the MOU. DoD
could manage the INRMP program more effectively by implementing the MOU
with USFWS to establish agreed-upon criteria for:

   •   determining INRMP purpose and contents,

   •   planning the review process, and

   •   notifying USFWS and State fish and wildlife agencies on INRMP status.




                                           7
    DoD should issue guidance that addresses agreements reached with USFWS to
    ensure efficient coordination when INRMP updates become due every 5 years.
    The schedules should stagger the review process so workload problems
    experienced during the recent review process are avoided.

    Regional Environmental Coordinators. According to DoD Instruction 4715.2,
    “DoD Regional Environmental Coordination,” May 3, 1996, DoD Regional
    Environmental Coordinators are responsible for coordinating with regulatory
    agencies on regional environmental issues that affect multiple Services to ensure
    that DoD environmental policies are consistently interpreted and applied
    throughout the region. The coordinators should also consult with military
    commanders on environmental issues that affect training and operations and voice
    the position of DoD on these issues to the regulatory agencies. INRMP issues
    between DoD and USFWS are regionalized, affect multiple Services, and affect
    DoD training and operations. The Military Departments should, as appropriate,
    ensure that DoD Regional Environmental Coordinators are aware of policy or
    procedural differences between DoD and USFWS or State fish and wildlife
    agencies in the INRMP process, and if needed, participate in resolving
    disagreements.

INRMP Implementation
    The Secretary of Defense is required to submit to Congress an annual report that
    includes funds expended on INRMP activities and an assessment of the extent to
    which the plans comply with the Act. However, 8 of the 10 DoD installations
    visited could not match INRMP projects to budget documentation. The Office of
    the Deputy Under Secretary of Defense (Installations and Environment) and the
    Services did not have a process to track the implementation of plans.

    DoD INRMP Handbook. In March 2002, the Office of the Assistant Deputy
    Under Secretary of Defense (Environment) posted a handbook entitled
    “Resources for INRMP Implementation, A Handbook for the Natural Resources
    Manager,” on the Defense Environmental Network and Information Exchange.
    The handbook, which is a guide for the DoD installation natural resources
    manager to use for implementing the plan after it is prepared, addresses the use of
    funding, interagency agreements, cooperative agreements, and partnering to
    facilitate INRMP implementation. The handbook also addresses monitoring
    techniques when assessing whether INRMP goals and objectives were met.
    However, because the handbook covers the period of the plan after preparation,
    the plan contains no discussion concerning the coordination of plans with the
    USFWS and State fish and wildlife agencies. The handbook should discuss
    developing good working relationships with the USFWS and State fish and
    wildlife agencies to coordinate annual reviews and 5-year updates of the plans.

    Funding INRMP Implementation. According to the Defense Environmental
    Quality Program Annual Reports to Congress, DoD installations spent
    $66,144,017 in FY 1998, $30,394,910 in FY 1999, $38,815,054 in FY 2000, and
    $43,177,244 in FY 2001 implementing their INRMP requirements. Funding
    sources for INRMP projects may include service operations and maintenance,
    forestry, agricultural outleases, and hunting and fishing revenues.


                                         8
           Service Headquarters Funding. Service headquarters officials stated
that their policy is to fund all of the Class 0 and Class I INRMP requirements.
However, the Services typically fund Class II and Class III INRMP projects only
if additional funding is available.

           INRMP Project Funding. The installations visited did not anticipate
funding shortfalls that would preclude an ability to implement their plans, with
the exception of Fort Hunter Liggett, California. Fort Hunter Liggett had
unfunded obligations of $569,000 in FY 2002, representing 76 percent of the
funding required to implement the compliance-driven projects in its plan. At the
other installations visited, compliance-driven INRMP projects had been included
in their budgets. Air Force installations visited included only those projects that
the installation expected would receive funding in their plans.

At 8 of the 10 installations visited, INRMP projects could not be matched to
budget documentation because budget line items included multiple INRMP
projects, and project costs were broken out among several budget line items to
include salaries. In some cases, specific projects were not identified in the plan,
only goals and objectives. Further, two installations visited did not list specific
projects and budget information in their plans because they believed the
installation would be subject to USFWS or public criticism if unable to complete
the projects.

Tracking INRMP Implementation. The Office of the Deputy Under Secretary
of Defense (Installations and Environment) and the Services did not have a
process to effectively track implementation of INRMP projects. The conservation
measure of merit used for the annual report to Congress used total dollars spent as
the only measure of INRMP implementation. However, total dollars spent did not
indicate whether INRMP projects had been funded and implemented.

The 10 DoD installations visited did not have methods in place to track how well
INRMP projects were implemented. Army and Navy guidance does not address
tracking INRMP implementation, and Air Force Instruction 32-7064, “Integrated
Natural Resources Management,” August 1, 1997, requires Air Force installations
to develop a natural resource database that will store and update information to
track program progress toward goals stated in the plan.
Without a process to effectively track the implementation of plans, the Office of
the Deputy Under Secretary of Defense (Installations and Environment) and the
Services cannot adequately monitor whether installations were making progress
toward accomplishing goals and objectives identified in their plans. In addition,
the most recent conservation measure of merit did not adequately capture the
extent to which plans were implemented. The Office of the Deputy Under
Secretary of Defense (Installations and Environment) and the Services should
update their respective guidance and establish a tracking method for INRMP
implementation and required metrics, which reports the progress installations
make toward accomplishing goals and objectives identified in their plans and the
identification of funding shortfalls.




                                     9
     The President’s Management Agenda calls for a greater focus on performance by
     formally integrating performance review with budget decisions. DoD
     installations will have difficulty integrating performance and budget when
     projects in the plan cannot be matched to budget documentation.

Risks to the Military Mission
     DoD installations not adhering to the Act are at risk for critical habitat
     designations, lawsuits, and public criticism, which may negatively affect the
     military mission. The Act states that plans should result in no net loss in the
     capability of military installation lands in support of the military mission for the
     installation. The USFWS Region 1 expects DoD INRMPs to address critical
     habitat designations and protection of threatened and endangered species without
     regard to the military mission.

     Critical Habitat Designations. USFWS policy directs that critical habitat on
     DoD land shall not be designated as long as the plans provide a conservation
     benefit to threatened and endangered species, have reasonable assurance of being
     implemented, and include a monitoring program to show that the program
     protects threatened and endangered species. For example, Vandenberg Air Force
     Base, California, was exempt from critical habitat designation for the California
     red-legged frog because USFWS determined that habitat protection measures
     contained in the Vandenberg Air Force Base INRMP were sufficient to protect the
     California red-legged frog.

     DoD installations with critical habitat designations must conduct Section 7
     consultation with the USFWS for any action that is likely to have an adverse
     effect on the threatened or endangered species pursuant to the Endangered
     Species Act. Section 7 consultations could significantly delay mission-related
     activities and result in biological opinions that could severely restrict the
     flexibility of DoD training and testing activities. Based on the installations
     visited, critical habitat designations have affected the ability to train and test.
     However, those effects are not documented and cannot be measured or quantified.

     Fort Hunter Liggett expects to be severely affected if the proposed critical habitat
     designation for the purple amole (threatened plant) is finalized near the mission-
     critical tank firing ranges. The proposed critical habitat designation would
     include inhabited areas and the surrounding areas because that habitat is suitable
     for the purple amole.

     Environmental restrictions have caused unrealistic training scenarios during
     amphibious assault exercises at MCB Camp Pendleton. The western snowy
     plover (threatened bird) may nest on any MCB Camp Pendleton beach throughout
     the year. Marines need to entrench mortars along the beaches, as they would in a
     combat situation. The Marines were not allowed to do that, however, because
     entrenching mortars can disrupt nesting, frighten adult plovers, cause nest
     abandonment, and separate chicks from their parents.




                                          10
    About 60 percent of the beaches on Naval Base Coronado, California, which are
    used for amphibious assault exercises and Navy Sea-Air-Land training, are
    restricted from use during the 6-month western snowy plover breeding season.
    Because the Navy Sea-Air-Land units cannot use the beaches consistently
    throughout the entire year, they have moved some of their training activities
    elsewhere so that the training program can remain consistent for each class.

    Litigation. DoD installations without a complete and coordinated INRMP may
    be subject to critical habitat designations by the USFWS. The USFWS decided
    not to designate areas of Marine Corps Air Station Miramar, California, as critical
    habitat because the installation had a plan in place. However, the Natural
    Resources Defense Council legally challenged the USFWS decision.

    The Public Employees for Environmental Responsibility brought a lawsuit against
    Edwards Air Force Base, California, for not having a completed plan, not having
    sufficient numbers of adequately trained natural resources personnel, and
    contracting out the preparation of their plan. The allegation concerning Edwards
    Air Force Base not having a completed plan was dismissed because the lawsuit
    was brought before the November 18, 2001, deadline. The Air Force is waiting
    for a motion for dismissal on the other two allegations involving Edwards Air
    Force Base.

Conclusion
    DoD made a positive attempt to meet the new requirements of the Act, but we
    identified additional areas for improvement. As of June 10, 2002, DoD
    completed 348 of 375 INRMPs (93 percent). DoD should emphasize completing
    the remaining plans and continue to resolve preparation and coordination issues
    that would ensure a better process when the 5-year updates are due. DoD is
    monitoring the preparation of the plans, but is not tracking the extent that INRMP
    goals and objectives are being accomplished. Additional management emphasis
    is needed to ensure optimum use of these plans as management tools.

Management Comments on the Finding and Audit Response
    Army Comments. The Army disagreed with the finding discussion on critical
    habitat. The Army stated the finding did not adequately address critical habitat
    and no net loss from a broader perspective. The Army suggested the final report
    provide a direct evaluation of the sufficiency of DoD and Service guidance
    documents to ensure that INRMPs provide for no net loss in the capability to
    support military missions.

    Audit Response. We agree with the Army that applying the no net loss aspect of
    the Sikes Act Improvement Amendments is difficult because other legal
    requirements, such as the Endangered Species Act, could cause a net loss on land
    use capability. However, evaluating sufficiency of the DoD and Service guidance
    documents to ensure INRMPs provide for no net loss in the capability to support
    military missions is beyond the scope of this report.



                                        11
Navy Comments. The Navy disagreed that the Navy installations visited did not
have methods in place to adequately monitor implementation of the plans. The
Navy stated that one of the installations visited did have methods in place,
specifically the Navy’s Environmental Requirements Management System, to
adequately monitor implementation of their INRMP. The Navy nonconcurred
with the conditions of the finding, stating that the Commander, Navy Region
Southeast resolved all of the issues related to their INRMPs and completed on
schedule all of their INRMPs. The Navy also stated that Navy installations and
commands used the Environmental Requirements Management System to track
INRMP projects. The Navy nonconcurred with the status of Navy INRMPs and
provided updated numbers. The Navy disagreed with the statement in the finding
discussion that USFWS officials also expected to be more involved in the entire
INRMP preparation process. The Navy stated that installations found that
USFWS did not have the time or staff to support the INRMP coordination
preparation and review process and suggested that we assess the ability or
inability of the USFWS to support the INRMP preparation and review process.
The Navy also nonconcurred with the statement in the finding discussion that
Military Departments should use DoD Regional Environmental Coordinators to
coordinate the INRMP process and resolve regional differences. The Navy stated
INRMP issues fall within the scope and duties of installation natural resource
personnel and Regional Environmental Coordinators do not have the manpower
or funding for coordination of INRMPs. The Navy nonconcurred with the
statement that the Services did not have a process to effectively monitor INRMP
implementation. The Navy stated that the Environmental Requirements
Management System and published Navy guidance provide Navy installations the
tools to monitor INRMP implementation.

Audit Response. We recognize the ability of Commander, Navy Region
Southeast to track the budgeting of the INRMP projects through the use of the
Environmental Program Requirement system and recent steps the region has taken
to match INRMP projects to specific Environmental Program Requirements in
their schedules for each installation under their command. We also recognize that
Navy INRMPs include project schedules with spaces to annotate completion dates
by installations at the annual reviews. However, separate systems for tracking
budget data and documenting the completion of integrated natural resources
management plan projects are not sufficient for monitoring progress towards
implementation of Navy INRMP projects. We recognize that the Commander,
Navy Region Southeast successfully coordinated INRMPs with the respective
USFWS local field offices and the State fish and wildlife agencies and completed
all of their INRMPs on schedule. However, other Navy and Marine Corps sites
visited either did not complete their INRMPs by the November 18, 2001, deadline
or had difficulties coordinating INRMPs with the USFWS and State fish and
wildlife agencies. At the time of our visit, Naval Base Coronado could not link
projects listed in their INRMP to projects identified in budget documentation.
Naval Base Coronado had begun to take steps to create a link between projects in
the INRMP and budget documentation. Data reflected in the tables for status of
Navy INRMPs were provided by and verified with the Naval Facilities
Engineering Command prior to publication of the draft report. We have updated
our tables, and we have revised our report to reflect management comments. We
used requirements of the Sikes Act Improvement Amendments and data collected
at site visits to determine USFWS expectations for involvement in the INRMP


                                   12
    preparation and review process. We agree with Navy’s position that the Regional
    Environmental Coordinators are not resourced to resolve INRMP issues and using
    the Regional Environmental Coordinators for installation-specific INRMP
    development and implementation would be overburdening to the Regional
    Environmental Coordinator. Therefore, we have revised our discussion on the use
    of Regional Environmental Coordinators and deleted draft Recommendation 3.
    At the time of audit fieldwork, neither the Chief of Naval Operations nor Naval
    Facilities Engineering Command identified a system in place to monitor progress
    towards implementation of INRMP projects for the Navy as a whole.

    Air Force Comments. The Air Force generally concurred with the finding.
    However, the Air Force took exception with several statements relative to Air
    Force compliance with the Sikes Act Improvement Amendments. The Air Force
    stated that they had issued numerous memorandums to establish the number of
    required plans and provide guidance on completion of plans. The Air Force also
    stated that Air Force Environmental Quality guidance issued on July 1, 1999, is
    policy to plan, program, and budget all level [class] 0 and level [class] I
    conservation requirements. The Air Force stated the term “sufficient time” was
    never defined and, therefore, the Air Force could neither concur nor nonconcur
    with the reasons why USFWS and State fish and wildlife officials could not plan
    and provide resources for the review of plans.

    Audit Response. We acknowledge that the Air Force did make efforts to resolve
    issues and provide guidance for preparing and completing INRMPs; however, Air
    Force installations did not complete 23 INRMPs prior to the November 18, 2001,
    deadline. We define sufficient time as that time necessary to meet the
    November 18, 2001, deadline for completing INRMPs.

Recommendations, Management Comments, and Audit
  Response
    Deleted Recommendation. As a result of management comments, we deleted
    draft Recommendation 3. relating to the Military Departments using DoD
    Regional Environmental Coordinators to coordinate and resolve regional
    differences concerning INRMPs.

    1. We recommend that the Deputy Under Secretary of Defense (Installations
    and Environment) and the Services work aggressively to coordinate and
    complete all remaining integrated natural resources management plans.




                                       13
Management Comments. The Deputy Under Secretary of Defense (Installations
and Environment), Army, Navy, and Air Force concurred with the
recommendation. The Deputy Under Secretary of Defense stated that their office
and the Services, along with the USFWS and the International Association of Fish
and Wildlife Agencies, have identified and corrected discrepancies between their
different INRMP tracking systems and have agreed to establish a single
spreadsheet to track the ongoing status of the required INRMPs. The Navy stated
that Navy and Marine Corps commands are working to complete remaining plans.
The Air Force stated that they are currently working with the USFWS and State
fish and wildlife agencies to complete coordination on all plans.

2. We recommend that the Deputy Under Secretary of Defense (Installations
and Environment), in collaboration with the Services, continue to jointly
develop integrated natural resources management plans with the U.S. Fish
and Wildlife Service by:

       a. Establishing a coordination process with the U.S. Fish and
Wildlife Service to ensure that installations work closely with U.S. Fish and
Wildlife Service regional and field offices that:

              (1) Establishes definitive schedules for integrated natural
       resources management plan reviews.

              (2) Resolves stewardship issues regarding no net loss of
       military lands to support the military mission.

              (3) Determines the degree that environmental contamination
       should be discussed in all integrated natural resources management
       plans.

Management Comments. The Deputy Under Secretary of Defense (Installations
and Environment), Navy, and Air Force concurred with the recommendation. The
Deputy Under Secretary of Defense stated that they will issue a new policy
memorandum by October 15, 2002, that establishes definitive schedules for
INRMP reviews, reaffirm how to address no net loss of military lands to support
the military mission and define the degree to which environmental contamination
should be discussed in all INRMPs. They are coordinating the policy
memorandum with the USFWS and the International Association of Fish and
Wildlife Agencies. The Navy stated that the DoD and USFWS are developing
new guidelines on INRMPs using the Sikes Act Working Group. The Air Force
stated that they are working with the Deputy Under Secretary of Defense
(Installations and Environment) and the USFWS to establish a standardized
coordination process and coordinate plans on a regional basis. The Army
concurred with the recommendation, with the exception of subpart (2) with which
they nonconcurred. The Army stated that the issue of no net loss is broader than
critical habitat or the Endangered Species Act and the solution should have more
substantive military influence before being subjected to the coordination process.

Audit Response. The Army comments to Recommendation 2.a.(2) are not
responsive. We disagree with the Army nonconcurrence. Our recommendation
for coordination is the result of difficulties reported in the development of


                                    14
INRMPs. If implemented, the recommended coordination process should include
all of the issues associated with no net loss of military lands that will support the
military mission and preclude difficulties during the INRMP 5-year review
process. We request that the Army reconsider its position on
Recommendation 2.a.(2) in response to the final report.

       b. Reconciling, on a routine basis, the number of installations
required to prepare and implement integrated natural resources
management plans and the number of integrated natural resources
management plans coordinated with the U.S. Fish and Wildlife Service.

Management Comments. The Deputy Under Secretary of Defense (Installations
and Environment), Army, Navy, and Air Force concurred with the
recommendation. The Deputy Under Secretary of Defense stated that its office,
the Military Services, the USFWS, and the International Association of Fish and
Wildlife Agencies will continue to meet on a regular basis to track INRMP status
and resolve issues of mutual concern.

       c. Issuing policy to:

              (1) Address agreements reached with the U.S. Fish and
       Wildlife Service on preparation and coordination of integrated
       natural resources management plans.

              (2) Track the implementation of integrated natural resources
       management plans for installations and link plan projects with
       approved installation budgets to determine the extent to which the
       plans are funded, particularly for Class 0 and I items.

              (3) Establish performance metrics for integrated natural
       resources management plans implementation and reviews and
       include those metrics in the conservation measure of merit and
       annual report to Congress.

Management Comments. The Deputy Under Secretary of Defense (Installations
and Environment), Army, Navy, and Air Force concurred with the
recommendation. The Deputy Under Secretary of Defense stated that the new
policy memorandum issued by October 15, 2002, will address the subparts of the
recommendation.




                                     15
Appendix A. Scope and Methodology

Scope and Methodology
    Work Performed. We analyzed DoD and Service policies and procedures, and
    the laws and acts related to INRMPs. We also reviewed published research and
    literature on INRMPs. We interviewed officials of the Deputy Under Secretary of
    Defense (Installations and Environment), DoD Component headquarters, DoD
    installations, USFWS, and State fish and wildlife agencies to obtain information
    on compliance of DoD with the Act concerning the preparation and coordination
    of plans and to assess the relationship between DoD and the civilian agencies.

    We selected 10 installations representing each of the Services and 3 USFWS
    Regions to compare the INRMP process among the Services and USFWS
    Regions. We visited five installations in USFWS Region 1, four installations in
    Region 4, and one installation in Region 5. For USFWS Region 1, we selected
    installations identified as having difficulty completing their plans. We visited and
    reviewed the INRMP process at the following installations:

       •   Fort Bragg, North Carolina

       •   Fort Hunter Liggett, California

       •   Naval Air Station Jacksonville, Florida

       •   Naval Base Coronado (excluding San Clemente Island), California

       •   Pope Air Force Base, North Carolina

       •   Vandenberg Air Force Base, California
       •   Marine Corps Air Station Miramar, California

       •   MCB Camp Lejeune, North Carolina

       •   MCB Camp Pendleton, California

       •   MCB Quantico, Virginia

    To determine whether DoD was adequately budgeting for projects under INRMPs
    and verify whether the projects were being budgeted over the duration of the
    plans, we compared the INRMP projects for the installations visited to budget
    documentation.

    We performed this audit from August 2001 through June 2002 in accordance with
    generally accepted government auditing standards. Because the INRMP process
    was in its infancy, we did not track the plans through the budget process to verify
    adequate funding. We did not evaluate the budget process above the installation


                                         16
    level. We did not review classification of INRMP projects to verify whether
    projects were properly classified in accordance with the Environmental Quality
    Conservation Compliance Classes.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD, the Department of the Interior, and State fish and
    wildlife agencies.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DoD management controls over INRMP preparation, coordination,
    and implementation. We also reviewed management’s self-evaluation applicable
    to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for DoD as defined by DoD Instruction 5010.40. DoD
    management controls over INRMP preparation, coordination, and implementation
    were not sufficient to ensure that the installations were not at risk for future
    critical habitat designations, environmental civil liability, negative affects on
    operations and military readiness, and strained relations with the USFWS. If
    management implements all recommendations, the preparation, coordination, and
    implementation of plans at installations will improve. A copy of the report will
    be provided to the senior official responsible for management controls in the
    Office of the Deputy Under Secretary of Defense (Installations and Environment)
    and the Departments of the Army, Navy, and Air Force.

    Adequacy of Management’s Self-Evaluation. DoD officials did not identify the
    preparation, coordination, and implementation of plans as an assessable unit and,
    therefore, did not identify or report the material management control weaknesses
    identified by the audit.




                                        17
Prior Coverage

Army
       Army Audit Agency, Report No. AA 02-099, “The Army Installation
       Conservation Program-Outleasing,” December 19, 2001

       Army Audit Agency, Report No. AA 01-420, “Army Forestry Program,”
       August 22, 2001


Air Force
       Air Force Audit Agency, Report No. 98052012, “Followup Audit – Natural and
       Cultural Resources,” August 5, 1998




                                        18
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Acquisition, Technology, and Logistics)
  Deputy Under Secretary of Defense (Installations and Environment)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Installations and Environment)
Auditor General, Department of the Army

Department of the Navy
Commandant of the Marine Corps
  Deputy Commandant for Installations and Logistics
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Assistant Secretary of the Navy (Installations and Environment)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Installations, Environment, and Logistics)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
U.S. Fish and Wildlife Service




                                            19
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
Government Reform




                                          20
Deputy Under Secretary of Defense
(Installations and Environment) Comments




                     21
22
23
Final Report
 Reference




Deleted




               24
25
Department of the Army Comments




                    26
     Final Report
      Reference




     Deleted




     Revised




27
Final Report
 Reference




Revised




Revised




Revised




Revised




               28
29
Department of the Navy Comments




                    30
     Final Report
      Reference




     Revised




31
Final Report
 Reference




Revised




               32
     Final Report
      Reference



     Revised




33
Final Report
 Reference




Deleted




Revised
Page 16




Revised
Revised
Page 3
Revised


Revised




               34
     Final Report
      Reference




     Revised




     Revised



     Revised
     Page 14




     Page 14




     Revised




35
36
Department of the Air Force Comments




                     37
38
39
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

Garold E. Stephenson
William C. Gallagher
Michael R. Herbaugh
Beth K. Schaefer
Jason M. Yovich
David E. Petko
